Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





  DETERMINING IF CHILDREN
    ENROLLED IN SEPARATE
  SCHIPS WERE ELIGIBLE FOR
         MEDICAID




                     Inspector General

                       June 2005
                     OEI-07-03-00220
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆   E X E C U T I V E                        S U M M A R Y


                  OBJECTIVE
                  To determine whether children enrolled in separate State Children’s
                  Health Insurance Programs (SCHIP) were eligible for Medicaid.


                  BACKGROUND
                  The Balanced Budget Act of 1997, Public Law 105-33, established the
                  SCHIP under Title XXI of the Social Security Act. To encourage States
                  to expand child health insurance eligibility, the Federal match rate for
                  States’ SCHIP expenditures is greater than the rate for Medicaid. This
                  creates a financial incentive for States to enroll children in SCHIP.
                  Children may be eligible for SCHIP or Medicaid, but not both. To
                  ensure States are not enrolling Medicaid-eligible children in SCHIP, the
                  Balanced Budget Refinement Act of 1999 mandates the Office of
                  Inspector General to sample States that administer separate SCHIPs
                  every 3 years to determine the number of SCHIP enrollees, if any, who
                  are eligible for Medicaid benefits.

                  Federal regulations require States to maintain an accounting system
                  and supporting financial records to assure proper SCHIP enrollment
                  and must include in each record facts to support the State’s
                  determination of SCHIP eligibility.

                  For a simple random sample of 386 cases from 34 States that
                  administer a separate SCHIP, we reviewed case-file documentation
                  according to each State’s criteria to determine whether each child was
                  eligible for SCHIP or Medicaid.


                  FINDINGS
                  Only 1 percent of children enrolled in separate SCHIPs were eligible for
                  Medicaid. We definitively determined that 4 of the 386 children whose
                  cases we reviewed were not eligible for SCHIP, but were eligible for
                  Medicaid. This result echoes our finding from our February 2001 report
                  on this same subject, which found only 9 of 500 children were enrolled in
                  error, indicating that enrollment errors continue to be low.




OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   i
E X E C U T I V E                 S U       M M A R Y


                   However, inconsistent income calculations and lack of
                   documentation create vulnerabilities. Thirteen percent of children’s
                   case files contained income calculations that were inconsistent with
                   State guidelines or we could not duplicate the analysis using available
                   case-file documentation. In addition, more than 7 percent of case files
                   lacked documentation to support States’ determinations of separate
                   SCHIP eligibility. Based on our own calculations, other case-file
                   documentation and information that States provided at our request, we
                   found no reason to challenge State determinations for a majority of
                   these cases.


                   CONCLUSION
                   Enrollment of Medicaid-eligible children in separate SCHIPs continues
                   to be low. However, inconsistent income calculations and lack of
                   documentation create vulnerabilities that, if not addressed, could lead
                   to children being enrolled in separate SCHIPs despite being eligible for
                   Medicaid, a result more likely true for children whose families’ incomes
                   are near the lower SCHIP income limit.

                   To keep errors low, the Centers for Medicare & Medicaid Services
                   (CMS) may want to remind States of the need to maintain information
                   in each case to support eligibility determinations and provide additional
                   guidance to States regarding practices to ensure proper SCHIP
                   enrollment.


                   AGENCY COMMENTS
                   CMS concurred with our findings and conclusions and noted that
                   regulations currently in place support our suggestion that the agency
                   work closely with States to ensure that States maintain sufficient
                   information in each applicant’s record to support the eligibility
                   determination. The Health Resources and Services Administration
                   expressed concern with what it believed was an inappropriately
                   negative tone in light of the fact that very few children were erroneously
                   enrolled in SCHIP. We agree that the finding of only 1 percent of
                   children enrolled in separate SCHIP were eligible for Medicaid is
                   positive. However, vulnerabilities we identified, if not addressed, could
                   lead to children being enrolled in separate SCHIPs despite being eligible
                   for Medicaid. We describe these vulnerabilities as a means to ensure
                   that future error rates remain low.

 OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   ii
∆   T A B L E           O F             C O N T E N T S



         EXECUTIVE SUMMARY ......................................... i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 9

                    Only 1 percent of children enrolled in separate SCHIPs were
                    eligible for Medicaid . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


                    However, inconsistent income calculations and lack of 

                    documentation create vulnerabilities . . . . . . . . . . . . . . . . . . . . . . . . . 11 


         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                    A: States’ Verification and Quality Assurance Practices . . . . . . . . 18 


                    B: Separate SCHIP Universe and Sample. . . . . . . . . . . . . . . . . . . . . 20 


                    C: Worksheets Used in Case Review. . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                    D: Confidence Intervals for Projections . . . . . . . . . . . . . . . . . . . . . . . 23 


                    E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28 

∆   I N T R O D U C T I O N




                  OBJECTIVE
                  To determine whether children enrolled in separate State Children’s
                  Health Insurance Programs (SCHIP) were eligible for Medicaid.


                  BACKGROUND
                  The Balanced Budget Act of 1997, Public Law 105-33, established the
                  SCHIP under Title XXI of the Social Security Act (the Act). Congress
                  appropriated nearly $40 billion over 10 years to help States expand
                  health insurance to children whose families earn too much to qualify for
                  Medicaid, yet not enough to afford private health insurance. The
                  SCHIP is designed to help reduce the number of uninsured low-income
                  children by providing them with health care coverage.

                  To cover uninsured children under Title XXI, States can design a
                  separate SCHIP and/or expand their existing Medicaid program. The
                  option for a separate SCHIP permits States to adopt programs that
                  closely resemble private health insurance and allows States
                  considerable flexibility in defining eligibility and coverage options.

                  This inspection addresses those 36 States that administer a separate
                  program. As of January 1, 2003, 19 States administered only a separate
                  SCHIP and 17 States administered both a separate and an expansion
                  SCHIP. At the end of the third quarter of Federal fiscal year 2003,
                  2.9 million children were enrolled in separate SCHIPs in these
                  36 States.1
                  Enhanced Federal Match Rates and Legislative Requirement for Office of
                  Inspector General Studies.
                  To encourage States to expand child health insurance eligibility, the
                  Federal match rate for States’ SCHIP expenditures is greater than the
                  rate for Medicaid. The average match rate for SCHIP is 72 percent,




                  1 The Centers for Medicare & Medicaid Services’ third quarter fiscal year 2003 enrollment
                   population is similar to the timeframes of our review period. “[Fiscal Year] 2003 Third
                   Quarter - Program Enrollment Last Day of Quarter by State- Total SCHIP.” Retrieved
                   June 3, 2004, from http://www.cms.hhs.gov/schip/enrollment/2003pit3qt.pdf.



OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   1
I N T R O D 
U C T           I O N




                   while the average rate for Medicaid is 60 percent.2 This creates a 

                   financial incentive for States to enroll children in SCHIP. 


                   Based on a variety of factors, such as a family’s countable income and
                   child’s age, children may be eligible for Medicaid or SCHIP, but never
                   both. Title XXI of the Act requires States to screen SCHIP applicants
                   for Medicaid eligibility to prevent States from inappropriately
                   maximizing Federal matching funds by enrolling Medicaid-eligible
                   children in SCHIP.

                   Furthermore, the Balanced Budget Refinement Act of 1999 mandates
                   the Office of Inspector General (OIG) to sample States that administer
                   separate SCHIPs every 3 years to determine the number of SCHIP
                   enrollees, if any, who are eligible for Medicaid. This study addresses
                   this section of the mandate. In February 2001, OIG released the first
                   mandated report on separate SCHIPs entitled “Ensuring Medicaid
                   Eligibles are not Enrolled in SCHIP,” OEI-05-00-00241. For that
                   inspection, we selected 5 States and reviewed 100 cases per State to
                   determine if Medicaid-eligible children were enrolled in separate
                   SCHIPs. We identified 9 enrollment errors in the sample of
                   500 children.

                   Although the mandate does not require examination of the
                   Medicaid-expansion SCHIPs, discussions with Congress indicated that
                   interest existed in collecting information on these programs. Therefore,
                   Medicaid-expansion programs will be addressed in a separate report.

                   The mandate also requires OIG to assess States’ progress in reducing
                   the number of uninsured children through their State-identified
                   performance goals and strategic objectives. In August 2004, OIG issued
                   a report addressing this portion of the mandate entitled “SCHIP:
                   States’ Progress In Reducing the Number of Uninsured Children,”
                   OEI-05-03-00280.
                   Screening SCHIP Applicants for Medicaid.
                   Federal regulations require States to screen all SCHIP applicants for
                   Medicaid eligibility.3 The screening must, at a minimum, identify those

                   2 Federal Register, November 30, 2001. Retrieved June 2, 2004, from
                    http://www.aspe.hhs.gov/health/fmap03.htm.
                   3 42 CFR § 457.350(a).




 OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   2
I N T R O D 
U C T           I O N


                   children who are potentially eligible for Medicaid based on such factors
                   as their age and family income falling below a percentage of the Federal
                   Poverty Level (FPL).4 Those children found to be eligible for Medicaid
                   must be enrolled in Medicaid. When determining Medicaid eligibility,
                   some States use resource or asset tests. These tests are based upon
                   predetermined amounts, set by the State, that limit the amount of
                   valuable material possessions (e.g., cash, cars, stocks, and bonds) a
                   family can have in order for a child to be eligible for Medicaid. For
                   instance, if a family owns a vehicle worth in excess of $3,000, they may
                   not qualify for Medicaid because the value of their resources exceeds the
                   State’s resource limit. This could directly impact SCHIP enrollment
                   because children who are found ineligible for Medicaid due to resource
                   or asset tests may be determined eligible for SCHIP even if their
                   family’s countable income would otherwise make them eligible for
                   Medicaid.
                   Determining SCHIP Eligibility.
                   If the Medicaid screening finds the child ineligible for Medicaid, then
                   the State determines whether the child is eligible for SCHIP. States
                   can establish their own criteria for SCHIP eligibility in accordance with
                   Federal regulations. States’ SCHIP criteria are broadly based on such
                   factors as the family’s countable income and the child’s age.5 The lower
                   income limit for SCHIP, as a percentage of the FPL, is essentially the
                   upper income limit for Medicaid, meaning that a child could be eligible
                   for SCHIP or Medicaid, but not both. The SCHIP also has an upper
                   income limit, as a percentage of the FPL, which a family’s income
                   cannot exceed. The upper and lower income limits for SCHIP vary by
                   State.

                   To determine what percentage of the FPL a family’s countable income
                   represents, States first determine the family’s gross income. Each State
                   establishes its own procedure for calculating gross income. States
                   generally take either an actual or averaged weekly income amount and
                   multiply by 4 or 4.3, or an actual or averaged bi-weekly income amount
                   and multiply by 2 or 2.15 to calculate a gross monthly income. Some




                   4 42 CFR § 457.350(b). 

                   5 42 CFR § 457.310 and 42 CFR § 457.320. 





 OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   3
I N T R O D 
U C T           I O N


                   States, however, use annual income amounts to determine eligibility 

                   rather than using monthly figures. 


                   Generally, income disregards are amounts that are subtracted from the
                   family’s gross income. In most States, income disregards of $90 for each
                   working parent and $50 for child support payments received, and a
                   deduction of $175-$200 for childcare expenses are permitted by State
                   policy. Not all States, however, have policies allowing the application of
                   income disregards.

                   When applicable, the appropriate income disregards are subtracted
                   from the family’s gross income to arrive at the family’s countable
                   income. The family’s countable income and the number of people in the
                   household are then used to determine what percentage of the FPL the
                   family’s countable income represents, based on the Federal Poverty
                   Guidelines published yearly in the Federal Register. If the family’s
                   countable income falls within the eligibility range the State established
                   for the child’s age group, the child is determined income eligible for
                   SCHIP. States must redetermine enrolled children’s eligibility at least
                   every 12 months.6
                   States’ Documentation Requirements.
                   Federal regulations require States to maintain an accounting system
                   and supporting financial records to assure proper SCHIP enrollment,
                   and the State must include facts to support the determination of SCHIP
                   eligibility in each record.7 States choose the documentation that they
                   require from families who apply and the processes they use to verify
                   information. (See Appendix A for a listing of the States’ verification and
                   quality assurance practices.) Some of the common documentation found
                   in a case file includes the following:
                       o 	 application for SCHIP;

                       o 	 copies of pay stubs or tax forms;

                       o 	 proof of other income, such as Social Security or 

                            unemployment benefits; 

                       o 	 dependent care expenses;



                   6 42 CFR § 457.320(e)(2). 

                   7 42 CFR § 457.226(a) and 42 CFR § 457.965. 





 OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   4
I N T R O D 
U C T           I O N


                       o 	 caseworker notes;

                       o 	 calculation sheets the State used, which detail how gross and
                            countable income were calculated; and
                       o 	 the family’s countable income used, and the corresponding
                            FPL percentage.

                   States may choose to allow families to self-declare income information.8
                   Self-declaration of income permits a family to state the amount of
                   income grossed over a period of time (e.g., daily, weekly, monthly, or
                   quarterly) without providing documentation, such as pay stubs or tax
                   records. Fourteen States have chosen to allow some form of
                   self-declaration. As such, State records may lack documentation to
                   support family income, but Federal regulations require that the records
                   must still contain facts to support their eligibility determinations
                   (e.g., calculations, disregards).


                   SCOPE
                   The information obtained for this study is restricted to those States that
                   were administering a separate SCHIP as of January 1, 2003. For a
                   simple random sample of children enrolled in separate SCHIPs as of
                   June 1, 2003, we determined whether a child was eligible for SCHIP,
                   based on the child’s age, family’s countable income, and household
                   composition. For those children whom we determined that their
                   family’s countable income fell below the lower income limit for SCHIP,
                   we determined whether they were eligible for Medicaid or the reasons
                   why they were appropriately enrolled in SCHIP. We did not evaluate
                   eligibility determinations for pregnant women or adults enrolled in
                   SCHIPs. Additionally, this report did not evaluate the Medicaid-
                   expansion programs administered by States under Title XXI.


                   METHODOLOGY
                   Sample Selection
                   From each of the 36 States that administers a separate program, we
                   requested the universe of children who were enrolled in separate
                   SCHIPs as of June 1, 2003. The separate population in Rhode Island

                   8 42 CFR § 457.380(b).




 OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   5
I N T R O D        U C T      I O N


                    consisted only of pregnant women. Michigan administers both a
                    separate SCHIP and Medicaid-expansion. Michigan had difficulties
                    providing us information about their program populations timely. We
                    intend to explore challenges States face in providing program
                    population information in a separate study. Both States were dropped
                    from the study. We received information from 34 States and aggregated
                    the State universes into a single population of 2.8 million. (See
                    Appendix B.) From the population representing the 34 States, we
                    selected a simple random sample of 400 cases for review. Due to their
                    relatively small separate SCHIP populations, Indiana, Maine,
                    Maryland, New Hampshire, North Dakota, and South Dakota did not
                    have any cases selected as part of our sample.

                    Some of the children in our separate SCHIP sample from New Jersey
                    were actually enrolled in Medicaid-expansion. After removal of nine of
                    those cases, we were left with two cases in New Jersey. A similar
                    problem occurred in Kentucky, resulting in five sampled cases that were
                    selected from that State actually being enrolled in Medicaid-expansion.
                    Since our sample population for this report was only separate SCHIP
                    cases, we excluded these five cases from our analysis as well, which left
                    no cases in Kentucky. This resulted in the exclusion of a total of
                    14 cases, bringing our total usable sample to 386.
                    Data Collection.
                    The case-file documentation we requested consisted of the SCHIP
                    application or the most recent redetermination information, supporting
                    income documentation (if appropriate), calculation sheets States used to
                    calculate income, and any notes indicating family circumstances or
                    explaining how eligibility was determined. States that allow families to
                    self-declare income information were not required to provide income
                    documentation. We reviewed this documentation to determine if
                    children enrolled in separate SCHIPs were eligible for SCHIP based on
                    each State’s separate SCHIP income-eligibility criteria. For those
                    children who were not eligible for SCHIP, we determined if they were
                    instead Medicaid-eligible.

                    In each State, we collected information on the State’s guidelines for
                    their separate SCHIP, which included, but was not limited to,
                    requirements for proof of income, age requirements, and the FPL limits.
                    We analyzed the following elements of each case in accordance with
                    each State’s criteria for separate SCHIP eligibility:

 OEI-07-03-00220    DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   6
I N T R O D        U C T      I O N


                        o 	 date of application or redetermination;

                        o 	 age of the child at the time of the SCHIP eligibility
                             determination;
                        o 	 household composition (or number of people in the family);

                        o 	 documentation used to support family income, which could
                             include pay stubs, tax forms, or income information from State
                             databases;
                        o 	 family’s gross income prior to any income disregards;

                        o 	 family’s countable income after any income disregards
                             (calculated by OIG based on the case-file documentation as
                             well as the caseworkers when this figure was available); and
                        o 	 the FPL percentage represented by the family’s countable
                             income (calculated by OIG based on case-file documentation,
                             as well as the caseworker).9
                    When the household composition, age, and countable family income
                    were within the FPL and State program guidelines, we determined
                    children income eligible for separate SCHIP, and therefore, we did not
                    attempt to determine if these children were eligible for Medicaid. When
                    it appeared that these factors were not within State program guidelines,
                    we contacted the State to provide the State an opportunity to support
                    the enrollment of the child. The States responded in one of three ways:
                    (1) they provided additional information that we accepted as support for
                    separate SCHIP enrollment; (2) they confirmed that an error in
                    enrollment had been made; or (3) they were unable to provide
                    documentation to support the eligibility determination, in which case
                    we concluded that an error had occurred. An example of the worksheet
                    we used in reviewing each case is found in Appendix C.
                    Separate SCHIP Administrators.
                    We gathered background information (such as how each program is
                    administered, who determines eligibility, how States ensure proper
                    enrollment, and unique programmatic features within each State) from

                    9 OIG FPL percentage calculations were based on the date of application. Annual poverty
                     level guidelines for 2003 were effective on February 7, 2003. Therefore, in reviewing
                     applications dated prior to March 1, 2003, we used 2002 FPL guidelines. For applications
                     dated on or after March 1, 2003, we used 2003 FPL guidelines.



 OEI-07-03-00220    DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   7
I N T R O D        U C T      I O N


                    SCHIP directors and administrators for the 36 States with separate
                    SCHIPs. To gain additional information about individual State
                    SCHIPs, we obtained each State’s eligibility criteria and a description of
                    its eligibility determination process.
                    Onsite Visits.
                    Prior to our case-file analysis, we conducted onsite visits with eligibility
                    staff in California, Texas, New York, and Georgia. These four States
                    represent 59 percent of the total separate SCHIP population. While
                    onsite, we had caseworkers demonstrate the process of making an
                    eligibility determination, reviewed both paper processes and electronic
                    systems used in determining eligibility, and observed what procedures
                    were in place to ensure proper enrollment.

                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency.




 OEI-07-03-00220    DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   8
∆      F I N D I N G S

                                                          Section 2102(b)(3)(B) of the Act
Only 1 percent of children enrolled in separate
                                                          requires that children who apply for
                SCHIPs were eligible for Medicaid         SCHIP but are found eligible for
                      Medicaid, must be enrolled in Medicaid. Out of 386 randomly sampled
                      separate SCHIP cases, we definitively determined that 4 children were
                      not eligible for SCHIP, but were eligible for Medicaid. Therefore,
                      1 percent of children enrolled in separate SCHIPs were eligible for
                      Medicaid. (See Appendix D for confidence intervals for all point
                      estimates.) The four cases, all from different States, are illustrated in
                      Table 1.


                           Table 1: Medicaid-Eligible Children Enrolled in SCHIP*
                                                         Federal Poverty
                                         Age Range                              Income Range
                                                           Level Range
                       State Criteria    Under age 1        200-250%         $2,020.00 - $2,525.00
       Case 1             Family               Child is under
                                                                                125%                            $1,263.12
                     (2 members total)             age 1
                       State Criteria            6-19 years                100-200%                       $1,271.67 - $2,543.34
       Case 2             Family                 Child is 14
                                                                                 73%                                $923.95
                     (3 members total)           years old
                       State Criteria             0-6 years                134-185%                       $2,755.94 - $3,804.84
       Case 3             Family               Child is 4 years
                                                                                126%                            $2,555.46
                     (6 members total)                old
                      State Criteria              1-5 years                134-200%                       $1,677.23 - $2,503.33
       Case 4             Family               Child is 3 years
                                                                                118%                            $1,480.12
                     (3 members total)                old
    Source: 2004 OIG analysis of case-file documentation for sampled SCHIP cases
    *The FPL changes each fiscal year and is adjusted for family size. Thus, 100% FPL in 2002 is
    different from 100% FPL in 2003, and 100% FPL for a family of three is different from 100% FPL for
    a family of four.



                          The SCHIP administrators in three States agreed that the children
                          were eligible for Medicaid; however, the fourth State SCHIP
                          administrator could not provide documentation to support the State’s
                          eligibility determination. The following paragraphs provide a detailed
                          description of the error in each case.

                          Case 1: The caseworker incorrectly interpreted an employer letter and
                          overstated the family’s monthly income, making the child appear to be
                          eligible for separate SCHIP, although the child was actually eligible for
                          Medicaid.


   OEI-07-03-00220        DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   9
F   I N D I N G 
S


                           Case 2: The application indicated that one parent worked between
                           24 and 40 hours per week and earned $10 per hour. The parent
                           submitted two pay stubs to verify her income, but these pay stubs were
                           not representative of her normal wages. Although there was a
                           discrepancy between the number of hours the parent reported that she
                           worked and what the income documentation showed, the caseworker
                           failed to clear up the discrepancy before determining eligibility. The
                           caseworker used wage information listed on the redetermination form
                           rather than the income substantiated by the employer. This resulted in
                           the family’s income appearing to be higher than what was actually
                           documented.

                           Case 3: State officials could not determine the cause, but agreed that an
                           error had been made. The child was enrolled in separate SCHIP despite
                           the family’s income being more than $500 below the minimum for
                           SCHIP eligibility in the child’s State.

                           Case 4: After repeated requests, State officials did not provide any
                           documentation for the eligibility determination that supported the child
                           being enrolled in separate SCHIP. The only documentation the State
                           provided was for an eligibility determination that found the child
                           eligible for Medicaid.
                           One child was ineligible for separate SCHIP because the family’s income
                           exceeded eligibility limits.
                           Federal regulation (42 CFR § 457.320) allows States to establish income
                           limits for SCHIP eligibility. If a family’s countable income is in excess
                           of the maximum income limit in their State, they should be found
                           ineligible. Although it was not the objective of this inspection, we
                           identified one child who was ineligible for separate SCHIP because the
                           family’s income exceeded the maximum income limit for the State.
                           Therefore, the child was ineligible. A detailed description of the error is
                           described in Table 2.

                                   Table 2: Child Ineligible for Separate SCHIP
                                                               Federal Poverty
                                             Age Range                          Annual Income Range*
                                                                Level Range
                        State Criteria            6-19 years                  100-200%                        $18,100 - $36,200
        Case 5             Family              Child is 10 years
                                                                                  248%                                $68,920
                      (4 members total)                old
     Source: 2004 OIG analysis of case-file documentation for the sampled SCHIP case                                                  

     *The State in which case 5 occurred uses annual income, rather than monthly income, to determine 

     SCHIP eligibility.

    OEI-07-03-00220        DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   10
F   I N D I N G        S


                      Case 5: The caseworker used only the family’s income from
                      self-employment, although they also had income from other
                      employment. Counting only the self-employment income, the family’s
                      countable income appeared to be $34,000 annually. This was the
                      income used to determine separate SCHIP eligibility. Based on State
                      criteria, counting all the income sources, the family’s actual countable
                      income was $68,920, which is above the maximum for separate SCHIP
                      eligibility in this State.
                                                           Thirteen percent of children’s
    However, inconsistent income calculations
                                                           case files contained inconsistent
            and lack of documentation create               income calculations or calculations
                               vulnerabilities             that we could not duplicate using
                                                           available case-file documentation.
                      Under Federal statute, States have the discretion to tailor the
                      administration of their SCHIPs to the unique characteristics of their
                      State. States can implement policies that provide varying means for
                      averaging and projecting income, determining what income to include or
                      exclude, and calculating which expenses can be disregarded (e.g., work
                      expenses and childcare expenses). We reviewed all cases in accordance
                      with each individual State’s criteria. Based on our review, 13 percent of
                      separate SCHIP cases contained income calculations that were
                      inconsistent with State guidelines or contained calculations that we
                      could not duplicate using available case-file documentation. Also worth
                      mentioning is that States did not provide the family’s countable income
                      totals arrived at by the caseworker for 131 of the 386 sampled cases.
                      Therefore, we could not compare our countable income calculations to
                      those that the State used to determine eligibility. Thus, it is possible
                      that the number of cases that contained inconsistent income
                      calculations could be higher.




    OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   11
F   I N D I N G        S      



                      Eight percent of children’s case
                      files exhibited inconsistencies in   Table 3: Differences Between Income
                                                               Calculated by State and Income
                      calculated income. In cases for
                                                                      Calculated by OIG*
                      8 percent of children, income        No. of Cases       Amount of Difference
                      was calculated in ways that                 14               $0.01 - $1.00
                      diverged from documented                    5               $1.00 - $10.00
                      State guidelines, and as a                  3              $10.00 - $50.00
                                                                  1             $50.00 - $100.00
                      result, the countable incomes               8             $100.00 - $500.00
                      we calculated differed from the       *In two cases, annual incomes have been
                      amounts the State reported.                 converted to monthly incomes.
                                                         Source: 2004 OIG analysis of case-file
                      However, for these cases, we 	
                                                         information
                      were able to follow what the
                      caseworker did that led to the differences in countable incomes. These
                      inconsistencies consisted of variations in how caseworkers applied State
                      guidelines regarding income disregards, multiplication methods, and
                      rounding. Some caseworkers also used incorrect income information.
                      The differences between the income amounts we calculated and the
                      income the State reported to us ranged from $0.01 to approximately
                      $500. (See Table 3.)

                      The inconsistencies identified did not result in the children being
                      ineligible for separate SCHIP, and therefore we agreed with the States
                      that these children were indeed eligible for separate SCHIP. However,
                      if not addressed, these inconsistencies show that there is a potential
                      that some children could be enrolled in separate SCHIPs, but be eligible
                      for Medicaid, especially in instances where families’ countable income is
                      close to the income limits between Medicaid and SCHIP or SCHIP and
                      ineligibility. We had 21 sampled children whose family countable
                      income was within 5 percent of the lower income limit for SCHIP
                      (i.e., within 5 percent of being eligible for Medicaid).10 Projected to our
                      universe of children enrolled in separate SCHIPs, this represents
                      5.4 percent of all children enrolled. Thus, minor income calculation
                      errors for these families could result in children being enrolled in
                      separate SCHIPs despite being eligible for Medicaid. Examples of the



                      10 Cases for 32 children from 1 State were excluded from this calculation because this State
                        did not provide the date on which their determinations were made. While we do not
                        dispute the State’s determinations, we were unable to identify which year’s FPL
                        guidelines to use in assessing proper enrollment in this State.



    OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   12
F   I N D I N G 
S


                      inconsistencies found in our sample are provided in the following
                      descriptions and tables.
                      Income Disregards. In some cases, income disregards were applied in
                      ways that contradicted State guidelines. For example, a caseworker
                      gave a family with two working parents only one earned income
                      disregard when they should have been given two, as Table 4 illustrates.



                                         Table 4: Income Calculations: Incorrectly Applied
                                                           Disregards
                                                                             OIG                            Caseworker
                                                              Parent 1 Parent 2                         Parent 1 Parent 2
                             Average Income                        314.75             434.89              314.75           434.89
                             Multiply By                             4.33               2.17                4.33             2.17
                             Monthly Income                   1,362.87                943.71            1,362.87           943.71
                             Disregards                         120.00                120.00                0.00           120.00
                             Countable Income                 1,242.87                823.71            1,362.87           823.71
                             Total Countable
                             Income                                      2,066.58                               2,186.58
                             Total Countable
                             Income Difference                                                  120.00


                      Multipliers. In these cases, caseworkers used methods for calculating
                      countable income that differed from State guidelines. For example, a
                      caseworker multiplied the average bi-weekly income by 4 instead of
                      4.33, as State guidelines specify.


                                            Table 5: Income Calculations: Incorrect Use
                                                           of Multipliers
                                                                   OIG        Caseworker
                                           Average Income          340.20           340.20
                                           Multiply By                4.33            4.00
                                           Monthly Income       1,473.07          1,360.80
                                           Disregards              120.00           120.00
                                           Countable Income     1,353.07          1,240.80
                                           Total Countable
                                           Income Difference               112.27




    OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID      13
F   I N D I N G        S


                      Rounding. In some instances, caseworkers rounded income amounts to
                      the next whole dollar, while income amounts in other cases from the
                      same State were not rounded. As Table 6 illustrates, a caseworker
                      rounded earned and unearned income amounts up to the nearest whole
                      dollar, while other caseworkers from this State did not.


                                            Table 6: Income Calculations: Rounding
                                                                OIG        Caseworker
                                         Earned Income         1,636.84       1,637.00
                                         Unearned Income         630.64         631.00
                                         Monthly Income        2,267.48       2,268.00
                                         Disregards               90.00          90.00
                                         Countable Income      2,177.48       2,178.00
                                         Total Countable
                                         Income Difference              0.52


                      Incorrect Numbers. In these cases, caseworkers also used incorrect
                      numbers in income calculations. Income figures on calculation sheets
                      contradicted the countable income totals as documented in the case
                      files. As Table 7 illustrates, a caseworker appears to have incorrectly
                      written $656.22 as $626.47.

                                          Table 7: Income Calculations: Caseworker
                                                           Errors
                                                                             OIG                     Caseworker
                                    Pay Stub 1                                656.22                            626.47
                                    Pay Stub 2                                585.15                            585.15
                                    Total Income                          1,241.37                        1,211.62
                                    Divide By                                 2.00                            2.00
                                    Average Income                            620.69                            605.81
                                    Multiply By                                 2.15                              2.15
                                    Monthly Income                        1,334.47                        1,302.49
                                    Disregards                               90.00                           90.00
                                    Countable Income                      1,244.47                        1,212.49
                                    Total Countable
                                    Income Difference                                         31.98




    OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   14
F   I N D I N G 
S


                      Approximately 5 percent of children’s case files contained income
                      calculations that we could not duplicate. In cases for 4.9 percent of
                      children, we were unable to arrive at the same income amount that the
                      State calculated. However, both the State’s and the OIG’s calculations
                      resulted in the child being eligible for separate SCHIP. For example,
                      one case file contained documentation of weekly income in the amounts
                      of $268.25, $280.94, $344.38, and $295.44. According to State
                      guidelines, these four amounts should have been totaled to determine
                      the family’s monthly gross income ($1,189.01). However, the case-file
                      documentation lists the family’s monthly gross income as $1,758.20.
                      There is no other documentation of income in the case file, nor is there
                      any indication of the calculations the caseworker made to arrive at the
                      documented monthly income. This example represents the problem in
                      all the cases where we identified similar concerns. Although the
                      caseworkers’ calculations could not be duplicated, our calculated
                      countable income supported the children’s enrollment in separate
                      SCHIP. As a result, we agreed with the States’ determinations of
                      eligibility.
                      More than 7 percent of case files lacked documentation to support the
                      States’ determinations of separate SCHIP eligibility.
                      Pursuant to 42 CFR § 457.965, States are required to include facts to
                      support the determination of eligibility for SCHIP on each child. In
                      3.9 percent of cases, the States did not provide documentation to
                      support the family’s countable income calculated by the caseworker and
                      used to determine eligibility. These cases were either from States that
                      did not allow self-declaration of income, or the case did not meet the
                      State’s criteria for self-declaration of income. Undocumented
                      information included wages (where required), unearned income, and
                      documentation of childcare expenses. Based on other information
                      contained in the case files, these children appeared to be properly
                      enrolled. However, without the missing documentation, we could not be
                      sure that the States’ determinations of eligibility were correct.

                      For another 2.3 percent of cases, States determined children were not
                      eligible for Medicaid, but the documentation we received did not fully
                      support the States’ determinations. For example, documentation for
                      some cases indicated that the children were enrolled in separate SCHIP
                      because their families had assets in excess of the Medicaid limit.
                      However, the case files lacked documentation to support the amount of


    OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   15
F   I N D I N G        S


                      or proof of the families’ assets and only indicated the children were
                      “enrolled due to assets.” In the remaining few cases, SCHIP officials
                      explained that household composition rules for Medicaid and SCHIP
                      differ in their State. Fewer people were counted in the household to
                      determine Medicaid eligibility than were counted to determine separate
                      SCHIP eligibility. Therefore, the families’ countable incomes were too
                      high for Medicaid, yet appeared too low for separate SCHIP. The
                      available documentation did not allow us to definitively determine
                      proper enrollment, although we did not dispute the States’
                      determinations.

                      Finally, 1.3 percent of cases appeared to have countable income that
                      would support Medicaid eligibility, although SCHIP officials claimed
                      that the children had been found ineligible for Medicaid because their
                      families’ countable incomes were too high. For these cases we could not
                      definitively determine proper enrollment.




    OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   16
      ∆          A P P E N D I X                       ~       A

                  State’s Verification and Quality Assurance Practices

                               The following chart illustrates the responses States gave when surveyed
                               about their verification and quality assurance practices. All of the
                               States except one reported that they use an electronic system to assist
                               caseworkers in their eligibility determinations. Additionally, all States
                               except North Dakota reported some type of systematic training of staff
                               regarding eligibility determinations. North Dakota reported that they
                               have only one person responsible for making SCHIP-eligibility
                               determinations, and that person has been in the same position since the
                               establishment of the program in that State. We were unable to identify
                               any relationship between quality assurance activities and the likelihood
                               of errors being made by the States.

   State ID            AL AZ CA CO CT DE                   FL GA             IA        IL       IN        KS KY MA MD ME                       MI       MS
Proof of Income
                       [   [   [    [        ,       [     ,       ,          [         [        [        [        [       [        ,      [   ,        [
   Required
Self-Declaration
                       ,   [   [    ,        [       ,     [       [          ,        ,         [        ,        ,       [        [      ,   [        ,
    Allowed
  Proof of Other
Eligibility Criteria   ,   ,   [    [        ,       ,     ,       [          [        ,         ,        ,        ,       ,        ,      ,   ,        ,
     Required
    Information
                       ,   ,   ,    ,        [       [     ,       [          [         [        [        [        [       [        ,      [   ,        [
      Verified
 Written Policies
for Verification of    ,   NR NR NR          [       [     NR      [          [         [        ,        [        [       [        [      [   ,        [
    Enrollment
Redetermination
    Information
      Verified         [   [   ,    ,        [       [     NR NR              [         [       NR        [        [       [        ,      [   [        [
    Same as at
    Enrollment
 Determinations
     Reviewed          [   [   [    [        [       [     [       [          [         [        ,        [        [       [        [      [   [        ,
    Periodically
Medicaid-Eligible
      Children
   Identified as       ,   ,   [    ,        [       ,     ,       ,          [        ,        NR        [        [       ,        ,      [   [        [
       Result
     of Review




    OEI-07-03-00220            DETERMINING   IF   CHILDREN ENROLLED    IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID           18
    A P P E N D            I X        A 



    State ID           MT NC ND NH NJ NV NY OR PA                                       RI       SD        TX      UT VA            VT WA WV WY
Proof of Income
                       ,   [     [    [        [       [     [     [           [         [        [         [       ,       [        ,      [   [     ,
   Required
Self-Declaration
                       [   ,     ,    ,        ,       [     ,     ,           ,         ,        ,        ,        [       ,        [      ,   ,     [
    Allowed
  Proof of Other
Eligibility Criteria   ,   ,     [    [        [       ,     [     ,           ,         [        ,         [       ,       ,        ,      [   ,     ,
     Required
    Information
                       ,   [     ,    [        [       [     ,     [           [         [        [         [       [       ,        [      [   [     [
      Verified
 Written Policies
for Verification of    [   [     NR   [        [       [     [     [           [         [        [         [       [      NR        [      [   [     [
     Enrollment
Redetermination
    Information
      Verified         [   [     [    NR       [       [     ,     [           [         [       NR         [       ,       ,        [      [   [     [
    Same as at
    Enrollment
 Determinations
     Reviewed          [   [     ,    [        [       [     [     [           [         [        [         [       [       [        ,      [   ,     [
    Periodically
Medicaid-Eligible
      Children
  Identified as a      [   ,     NR   ,        [       ,     [    NR           [         [        [        NR NR            [       NR      [   NR    ,
       Result
     of Review




    Key
              [   Indicates State’s response was Yes
              , Indicates State’s response was No

              NR Indicates State did not respond




    OEI-07-03-00220              DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID        19
∆        A P P E N D I X                  ~       B
        Separate SCHIP Universe and Sample

                     The following Table shows the total number of children enrolled in each
                     State’s separate SCHIP and the total number of children selected in our
                     sample in each State.



                                               Separate Percent of Separate Percent of
                          State
                                               Universe Universe   Sample    Sample

                           AL                    59,991        2.14                 16.00               4.15
                           AZ                    49,717        1.77                  8.00               2.07
                           CA                   656,696       23.39                 93.00              24.09
                           CO                    48,671        1.73                  8.00               2.07
                           CT                    14,799        0.53                  1.00               0.26
                           DE                     4,920        0.18                  1.00               0.26
                           FL                   316,882       11.29                 47.00              12.18
                           GA                   183,986       6.55                  32.00               8.29
                           IA                    14,996        0.53                  1.00               0.26
                            IL                   21,090        0.75                  1.00               0.26
                           IN                    13,803        0.49                  0.00               0.00
                           KS                    30,133        1.07                  3.00               0.78
                           KY                    20,193        0.72                  0.00               0.00
                           MA                    16,051        0.57                  1.00               0.26
                           MD                     6,018        0.21                  0.00               0.00
                           ME                     4,624        0.16                  0.00               0.00
                           MS                    56,656        2.02                  6.00               1.55
                           MT                     9,530        0.34                  2.00               0.52
                           NC                   100,916        3.59                 10.00               2.59
                           ND                     2,094        0.07                  0.00               0.00
                           NH                     5,389        0.19                  0.00               0.00
                           NJ*                   94,581        3.37                  2.00               0.52
                           NV                    23,319        0.83                  5.00               1.30
                           NY                   311,826       11.11                 44.00              11.40
                           OR                    18,697        0.67                  2.00               0.52
                           PA                   116,615       4.15                  21.00               5.44
                           SD                     1,872        0.07                  0.00               0.00
                           TX                   511,810       18.23                 71.00              18.39
                           UT                    24,232        0.86                  2.00               0.52
                           VA                    33,358        1.19                  4.00               1.04
                           VT                     2,986        0.11                  1.00               0.26
                           WA                     6,219        0.22                  1.00               0.26
                           WV                    21,543        0.77                  2.00               0.52
                           WY                     3,113        0.11                  1.00               0.26
                          Total               2,807,326      99.98**               386.00             100.02**
                     * Recent information suggests that New Jersey’s separate universe is actually 61,245.

                     **The totals do not equal 100 percent due to rounding.




OEI-07-03-00220      DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   20
  ∆         A P P E N D I X                        ~      A
                                                          B
                                                          C

                  Worksheets Used in Case Review

                           The following pages show examples of the case review and calculation
                           sheets we used in reviewing the sampled cases. The example is not
                           meant to represent any specific State or case, but rather to illustrate the
                           process used in assessing proper enrollment.




OEI-07-03-00220            DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   21
    A   P   P E N D      I X ~     C            





 Source: OIG worksheet used in case-file review




OEI-07-03-00220           DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   22
  Δ         A P P E N D I X                          ~      D

             Confidence Intervals for Projections

                             The following chart shows projections to the separate SCHIP universe
                             based on the errors and inconsistencies identified in our review. The
                             projections are made at the 95% confidence level.

                             Confidence Intervals - Errors and Inconsistencies Found
                  Type of Error or Inconsistency                             Point Estimate                        Confidence Interval
             Improperly Enrolled Because Eligible for
                                                                                      1.0%                                   0.3 - 2.6%
                            Medicaid
           Income Calculations Not Supported by State
                                                                                     13.0%                                   9.6 - 16.3%
                          Guidelines*
                  Calculations Inconsistent with
                                                                                      8.0%                                   5.5 - 11.2%
                  Documented State Guidelines
                  Cases Within 5 Percent of Being Eligible
                                                                                      5.4%                                   3.4 - 8.2%
                  for Medicaid
               OIG Could Not Duplicate Caseworker's
                                                                                      4.9%                                   3.0 - 7.6%
               Calculations
           Lacked Documentation to Support Eligibility
                                                                                      7.5%                                   5.1 - 10.6%
                         Determinations
                    Lacked Documentation of Countable
                                                                                      3.9%                                   2.2 - 6.3%
                                Income
                    Lacked Documentation to Support                                   2.3%                                   1.1 - 4.4%
                    States' Determinations of Separate
                             SCHIP Eligibility                                        1.3%                                   0.4 - 3.0%
         *This confidence interval uses the normal distribution; all others use the binomial distribution.




OEI-07-03-00220              DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID      23
  ∆         A P P E N D I X                 ~      E




OEI-07-03-00220     DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   24
    A P P E N D   I X ~ E              





OEI-07-03-00220   DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   25
    A G     E N   C Y     C O     M M E N T                S 





OEI-07-03-00220         DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   26
    A G     E N   C Y     C O     M M E N T                S 





OEI-07-03-00220         DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   27
  ∆
  ∆
        E N
            A P
              C P
                D
                K EN NNO ODW TI L X
                                  E E S D~ G BM E N T S

                       This report was prepared under the direction of Brian T. Pattison,
                       Regional Inspector General for Evaluation and Inspections in the
                       Kansas City regional office, and Gina C. Maree, Assistant Regional
                       Inspector General. Other principal Office of Evaluation and Inspections
                       staff who contributed include:

                        Mike Craig, Project Leader
                        Dennis Tharp, Program Analyst

                        Elander Phillips, Program Analyst

                        Michala Walker, Program Analyst

                        Brian Whitley, Program Analyst

                        Linda Hall, Program Specialist

                        Elise Stein, Director, Public Health and Human Services Branch

                        Barbara Tedesco, Mathematical Statistician




OEI-07-03-00220        DETERMINING   IF   CHILDREN ENROLLED   IN   S E PA R AT E S C H I P S   WERE   ELIGIBLE   FOR   MEDICAID   28
